    NATIONAL CREDIT UNION ADMINISTRATION

               OFFICE OF INSPECTOR GENERAL



            NCUA FINANCIAL STATEMENT AUDITS
                          FOR

                    OPERATING FUND
                 SHARE INSURANCE FUND
               CENTRAL LIQUIDITY FACILITY
             COMMUNITY DEV. REVOLVING FUND




                For the year ended December 31, 1998

        Audited Financial Statements              Audit Report Number

           NCUA Operating Fund                           993
        NCUA Share Insurance Fund                        994
           Central Liquidity Facility                    995
Community Development Revolving Loan Program             996




                            March 31, 1999



                        _______________________
                              Frank Thomas
                            Inspector General
            NATIONAL CREDIT UNION ADMINISTRATION

            AUDIT OF THE 1998 FINANCIAL STATEMENTS


                             TABLE OF CONTENTS




                                                                Page/Tab
Executive Summary                                                  1

Observations and Recommendations                                   2

Audit Report Follow-up                                             5

Financial Audit Reports:

       NCUA Operating Fund (Report No. 993)                        Tab 1

       NCUA Share Insurance Fund (Report No. 994)                 Tab 2

       Central Liquidity Facility (Report No. 995)                Tab 3

       Community Dev. Revolving Loan Program (Report No. 996)     Tab 4

       SAS and Y2K Letters                                         Tab 5
                             EXECUTIVE SUMMARY


                              The National Credit Union Administration (NCUA) Office
 PURPOSE AND SCOPE
                              of Inspector General contracted with the independent
public accounting firm of Deloitte & Touche to perform the financial statement audits of
the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity Facility, and
the Community Development Revolving Loan Program, for the year ended December 31,
1998.

The purpose of the audits is to express an opinion on whether the financial statements are
fairly presented. The independent firm also reviewed the internal control structure and
evaluated compliance with laws and regulations, as part of their audit.

The audits were performed in accordance with generally accepted auditing standards and
Government Auditing Standards issued by the Comptroller General of the United States.
The NCUA Office of Inspector General reviewed the independent firm’s workpapers, as
part of its oversight function.

                                                 Deloitte & Touche and their
FINANCIAL STATEMENT CONTRACT                     subcontractors, Brown & Company
contracted with the Inspector General in May 1996 to perform the financial statement
audits mentioned above. The contract was for 1996, with four option years. The
Assistant Inspector General for Audits is the contracting officer’s technical representative
for this contract.

                        Deloitte & Touche expressed unqualified opinions, stating that the
AUDIT RESULTS           financial statements present fairly, in all material respects, the
financial position of the NCUA Operating Fund, the Share Insurance Fund, the Central
Liquidity Facility, and the Community Development Revolving Loan Program, at
December 31, 1998, and the results of operations for the year then ended.

Although Deloitte & Touche does not express an overall opinion of the Funds’compliance
with laws and regulations, their testing of compliance did not disclose any significant
deviations.

Deloitte & Touche did not find any matters considered to be material weaknesses in their
review of the Funds’internal control structures pertinent to financial reporting. However,
during the performance of the audit, we developed the following recommendations
related to internal control over financial reporting and certain observations and
recommendations on other accounting, administrative, and operating matters.
              OBSERVATIONS AND RECOMMENDATIONS



Adequate OTIS Resources      The NCUA Office of Technology and Information Services
                             (OTIS) has several vacancies. As a result, resources were
supplemented by outside consultants such as the one hired to perform security work for
NCUA.

Inadequate staffing has put OTIS behind in security monitoring activities and maintaining
adequate service levels. Additionally, inadequate staffing could result in improper
segregation of duties.

Recommendation:

NCUA management should consider the requirements to adequately staff the Office of
Technology and Information Services. Once adequate staffing levels have been reached,
management should periodically review the duties and responsibilities of each staff
member to determine that duties are properly segregated.


Data Center Access       We noted that several individuals, approximately 20% of local
                         personnel, have been granted unrestricted access to the data
center. Management had not been able to justify such unrestricted access to the data
center. It is important to keep data center access restricted to necessary personnel whose
job functions require their presence. This will facilitate accountability among authorized
personnel and limit the potential for unintentional or intentional damage to network
hardware.

Recommendation:

NCUA should review the data center, telephone room, and the check-printer room access
listings to ensure that only authorized personnel have access.


Security Issues      We noted security issues related to firewall security; account security;
                     and SAP security. These issues along with our recommendations have
been communicated to OTIS management and are included in a “restricted appendix”
which is not part of this report.
 Other Issues     During the audit procedures, we noted some issues that did not impact
                  our overall assessment of the general computer or application controls.
However, it would be beneficial for NCUA to address these concerns in order to
strengthen the control and security of the information systems environment. The issues
are summarized briefly below:

• We reviewed the Business Continuity Plan and noted that the Octel Voice Systems
  have not been addressed. NCUA should review the Business Continuity Plan to
  determine the business impact due to a lack of Octel Systems, and address the
  procedures to reinstate this system.
• We noted that the following finding from the prior year has not been resolved:
  “Programmers have update access to the production data and system controls.”
  Management should evaluate the programmers’access and adequately restrict system
  access to production data or ensure there are adequate mitigating controls to ensure
  data and system integrity.
• We observed cardboard boxes scattered on the data center floor that blocked an
  emergency exit. We also noticed such boxes within some of the telephone/hub rooms.
  In addition, we noted that several of the hub rooms were not kept cool. Management
  should routinely examine the physical security, including potential fire hazards, of the
  data center and the telephone/hub rooms. Additionally, management should consider
  acquiring air conditioners for the telephone/hub rooms.
• We noted that not all workstations are running the most recent version of the anti-
  virus software containing the most recent virus definition files. We encourage NCUA
  to move the most recent version of the antiviral software and definition files into the
  production environment on all workstations. Additionally, we encourage NCUA to
  frequently monitor the vendor website for new versions of definition files. Once
  released, the definition files should be tested in the development environment and
  moved to the production environment on all workstations as soon as possible.
• A computer policy has been developed to address the issues of software piracy;
  however, this policy is not being actively monitored. During the audit procedures, we
  did not find any unlicensed software; however, this does not mean there are no
  violations in existence. We encourage NCUA to establish monitoring procedures to
  ensure that only licensed software is maintained on the employees’computers. Such
  procedures may include the use of program audit software.
• NCUA’s network contains one primary domain controller (PDC), HQNT, and eight
  resource domains. There are two-way trusts between these domains. We encourage
  NCUA to review the necessity of maintaining a two-way trust.
CURRENT STATUS OF PRIOR-YEAR COMMENTS

                              Last year we recommended that OTIS management
 Systems Development Life
                              develop a formal SDLC that encompasses procedures for
 Cycle
                              developing and testing new or modified
hardware/software. Based on Deloitte & Touche’s understanding of industry “Best
Practices,” we recommended that such a policy address the following key areas:

•   Statement of Information Systems Strategy
•   Information Systems Administration
•   Project Initiation Procedures
•   Project Development Procedures
•   Technology Acquisition Procedures
•   Testing Requirements
•   Migration and Implementation Procedures

Recommendation:

We noted during our audit that NCUA OTIS management maintains an informal Systems
Development Life Cycle. Management has reported that they are currently in the process
of formalizing these procedures. We continue to recommend that NCUA OTIS
management complete the development and implementation of the formal SDLC.
                      AUDIT REPORT FOLLOW-UP


NCUA should respond to this audit report and accompanying recommendations in
accordance with the NCUA Audit Follow-up Instruction (1910.6, May 16, 1995).
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

Financial Statements for the Years Ended
December 31, 1998 and 1997, and
Independent Auditors’Reports
INDEPENDENT AUDITORS’REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Operating Fund
(the Fund) as of December 31, 1998 and 1997, and the related statements of revenues, expenses, and changes in
fund balance, and of cash flows for the years then ended. These financial statements are the responsibility of
the National Credit Union Administration Operating Fund’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Operating Fund as of December 31, 1998 and 1997, and the results of its
operations and its cash flows for the years then ended in conformity with generally accepted accounting
principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 26, 1999,
on our tests of the National Credit Union Administration Operating Fund’s compliance with certain provisions
of laws, regulations, contracts and grants, and our consideration of its internal control over financial reporting.




February 26, 1999
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

BALANCE SHEETS
DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


ASSETS                                               1998       1997

  Cash and cash equivalents                        $ 12,736   $ 7,549
  Due from National Credit Union Share
     Insurance Fund (Note 4)                         2,129        114
  Employee advances                                    865        706
  Other accounts receivable                            113         94
  Prepaid expenses                                     164        113
  Fixed assets - net of accumulated depreciation
     and amortization (Note 3)                      41,233     43,187
  Employee residences held for resale                  -          611

TOTAL ASSETS                                       $ 57,240   $ 52,374


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Accounts payable                                 $ 4,064    $ 2,623
  Accrued wages and benefits                         4,864      2,089
  Accrued annual leave                               4,952      4,892
  Accrued employee travel                              735        688
  Notes payable to National Credit Union
    Share Insurance Fund (Note 4)                   34,574     35,987

              Total liabilities                     49,189     46,279

COMMITMENTS AND CONTINGENCIES (Notes 5 and 8)

FUND BALANCE                                         8,051      6,095

TOTAL LIABILITIES AND FUND BALANCE                 $ 57,240   $ 52,374


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF REVENUES, EXPENSES, AND CHANGES IN FUND BALANCE
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


                                                        1998       1997

REVENUES:
  Operating fees                                      $ 50,591   $ 44,701
  Interest                                               1,396      1,278
  Other                                                    262        317

              Total revenues                           52,249     46,296

EXPENSES (Note 4):
  Employee wages and benefits                          35,853     34,197
  Travel                                                4,958      5,281
  Rent, communications, and utilities                   1,723      1,380
  Contracted services                                   2,532      2,131
  Other                                                 5,227      5,618

              Total expenses                           50,293     48,607

EXCESS (DEFICIENCY) OF REVENUES OVER EXPENSES           1,956     (2,311)

FUND BALANCE, BEGINNING OF YEAR                         6,095      8,406

FUND BALANCE, END OF YEAR                             $ 8,051    $ 6,095


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)

                                                            1998       1997
CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess (deficiency) of revenues over expenses           $ 1,956    $ (2,311)
  Adjustments to reconcile excess (deficiency) of
     revenues over expenses to cash provided by
     operating activities:
     Depreciation and amortization                          3,205      4,680
     Loss on disposal of fixed assets                         162        149
     Miscellaneous allowances                                 -           70
  (Increase) decrease in assets:
     Due from National Credit Union
        Share Insurance Fund                               (2,015)       210
     Employee advances                                       (159)      (488)
     Other accounts receivable                                (19)       487
     Prepaid expenses                                         (51)       (23)
  (Decrease) increase in liabilities:
     Accounts payable                                       1,441        286
     Accrued wages and benefits                             2,775     (2,416)
     Accrued annual leave                                      60       (452)
     Accrued employee travel                                   47         19
              Net cash provided by operating activities     7,402        211
CASH FLOWS FROM INVESTING ACTIVITIES:
  Purchases of fixed assets                                (2,016)    (4,930)
  Proceeds from sale of fixed assets                        1,214        830
              Net cash used in investing activities          (802)    (4,100)
CASH FLOWS FROM FINANCING ACTIVITIES:
  Repayments of notes payable                              (1,413)    (1,413)
              Net cash used in financing activities        (1,413)    (1,413)
NET INCREASE (DECREASE) IN CASH AND CASH
  EQUIVALENTS                                               5,187     (5,302)
CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                7,549     12,851
CASH AND CASH EQUIVALENTS, END OF YEAR                    $ 12,736   $ 7,549

See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
OPERATING FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1998 AND 1997


1.   ORGANIZATION AND PURPOSE

     The National Credit Union Administration Operating Fund (the Fund) was created by the
     Federal Credit Union Act of 1934. The Fund was established as a revolving fund in the
     United States Treasury under the management of the National Credit Union Administration
     Board for the purpose of providing administration and service to the Federal Credit Union
     System.

2.   SIGNIFICANT ACCOUNTING POLICIES

     Cash Equivalents - The Federal Credit Union Act permits the Fund to make investments in
     United States Government securities or securities guaranteed as to both principal and interest
     by the United States Government. Cash equivalents are highly liquid investments with
     original maturities of three months or less. All investments in 1998 and 1997 were cash
     equivalents and are stated at cost, which approximates market.

     Depreciation and Amortization - Building, furniture and equipment, and leasehold
     improvements are recorded at cost. Depreciation and amortization are computed by the
     straight-line method over the estimated useful lives of the building and furniture and
     equipment, and the shorter of the estimated useful life or lease term for leasehold
     improvements. Estimated useful lives are forty years for the building and three to ten years
     for the furniture and equipment and leasehold improvements.

     Operating Fees - The Fund assesses each federally chartered credit union an annual fee based
     on the credit union’s asset base as of the preceding December 31. The fee is designed to
     cover the costs of providing administration and service to the Federal Credit Union System.
     The Fund recognizes this operating fee revenue ratably over the year.

     Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the
     Internal Revenue Code.

     Fair Value of Financial Instruments - The following methods and assumptions were used in
     estimating the fair value disclosures for financial instruments:

          Cash and cash equivalents, receivable from National Credit Union Share Insurance
          Fund (NCUSIF), employee advances, other accounts receivable, accounts and notes
          payable to NCUSIF, and other accounts payable are recorded at book values, which
          approximate the respective fair market values.

     Use of Estimates - The preparation of financial statements in conformity with generally
     accepted accounting principles requires management to make estimates and assumptions that
     affect the reported amounts of assets and liabilities and disclosure of contingent assets and
     liabilities at the date of the financial statements and the reported amounts of revenues and
     expenses during the reporting period. Actual results could differ from management’s
     estimates.

     Reclassifications - Certain reclassifications to 1997 amounts were made to the conform to the
     1998 presentation.

3.   FIXED ASSETS

     Fixed assets are comprised of the following (in thousands):

                                                                                          1998         1997
       Office building and land                                                        $ 42,229      $ 42,229
       Furniture and equipment                                                           21,780        20,544
       Leasehold improvements                                                               -              19
                      Total                                                              64,009       62,792
       Less: Accumulated depreciation and amortization                                   22,776       19,605
       Fixed assets, net                                                               $ 41,233      $ 43,187


4.   TRANSACTIONS WITH NCUSIF

     Certain administrative services are provided by the Fund to NCUSIF. The Fund charges
     NCUSIF for these services based upon an annual allocation factor approved by the NCUA
     Board derived from an estimate of actual usage. The allocation factor was 50% to NCUSIF
     and to the Fund for 1997 and 1998. The cost of the services allocated to NCUSIF, which
     totaled approximately $50,293,000 and $48,607,000 for 1998 and 1997, respectively, are
     reflected as a reduction of the corresponding expenses in the accompanying financial
     statements.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with NCUSIF
     for the purchase of a building. Interest costs incurred were approximately $81,000 for 1998
     and $83,000 for 1997. The outstanding principal balance at December 31, 1998 and 1997,
     was $1,386,000 and $1,458,000, respectively.

     In 1992, the Fund entered into a commitment to borrow up to $41,975,000 in a thirty-year
     secured term note with NCUSIF. The monies were drawn as needed to fund the costs of
     constructing a new building. Interest costs incurred were approximately $1,926,000 and
     $1,945,000 for 1998 and 1997, respectively. The note payable balance at December 31,
     1998, was approximately $33,188,000.
     The above notes require principal repayments as follows (in thousands):

                                                                        Unsecured Secured
                                                                        Term Note Term Note              Total
       1999                                                              $      72     $ 1,341         $ 1,413
       2000                                                                     72       1,341           1,413
       2001                                                                     72       1,341           1,413
       2002                                                                     72       1,341           1,413
       2003                                                                     72       1,341           1,413
       Thereafter                                                            1,026      26,483          27,509
                                                                         $ 1,386       $ 33,188        $ 34,574


     The variable rate on both notes is equal to NCUSIF’s prior-month yield on investments. The
     average interest rate during 1998 and 1997 was 5.70% and 5.53%, respectively. The interest
     rate at
     December 31, 1998, was 5.74%.

5.   COMMITMENTS

     The Fund leases office space under lease agreements that expire through 2003. Office rental
     charges amounted to approximately $976,000 and $678,000 of which approximately
     $488,000 and $339,000 was reimbursed by NCUSIF for 1998 and 1997, respectively. In
     addition, the Fund leases office equipment under operating leases with lease terms of less than
     one year.

     The future minimum lease payments as of December 31, 1998, are as follows (in thousands):

                                                                             Operating
                                                                              Leases

                                        1999                                 $ 888
                                        2000                                   538
                                        2001                                   561
                                        2002                                   571
                                        2003                                    88

                                               Total                         $ 2,646

     Based on the allocation factor approved by the NCUA Board for 1998, NCUSIF will
     reimburse the Fund for approximately 50% of the future lease payments.

6.   RETIREMENT PLAN

     The employees of the Fund are participants in the Civil Service Retirement and Disability
     Fund, which includes the Federal Employees’Retirement System (FERS). Both plans are
     defined benefit retirement plans covering all of the employees of the Fund. FERS is
     comprised of a Social Security Benefits Plan, a Basic Benefits Plan, and a Savings Plan.
     Contributions to the plans are based on a percentage of employees’gross pay. Under the
     Savings Plan, employees can also elect additional contributions between 1% and 10% of their
     gross pay, and the Fund will match up to 5% of the employees’gross pay. In 1998 and 1997,
     the Fund’s contributions to the plans were approximately $6,863,000 and $6,705,000,
     respectively, of which approximately $3,432,000 and $3,352,000 were reimbursed by
     NCUSIF, respectively.

     The Fund does not account for the assets of the above plans and does not have actuarial data
     with respect to accumulated plan benefits or the unfunded liability relative to eligible
     employees. These amounts are reported by the U.S. Office of Personnel Management for the
     Civil Service Retirement and Disability Fund and are not allocated to individual employers.

7.   DISCLOSURES OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as
     follows (in thousands):

                                                       December 31, 1998               December 31, 1997
                                                      Carrying     Fair               Carrying      Fair
                                                      Amount      Value               Amount      Value

       Cash and cash equivalents                      $ 12,736      $ 12,736         $ 7,549         $ 7,549
       Due from NCUSIF                                   2,129         2,129             114             114
       Employee advances                                   865           865             706             706
       Other accounts receivable                           113           113              94              94
       Accounts payable                                  4,064         4,064           2,623           2,623
       Notes payable to NCUSIF                          34,574        34,574          35,987          35,987


8.   CONTINGENCIES

     Field of Membership Litigation - Four North Carolina Banks and the American Bankers
     Association (ABA) have challenged NCUA’s approval of charter amendments granted to
     AT&T Family Federal Credit Union (FCU). The banks challenged amendments that allowed
     select employee groups that were unrelated to the original sponsor to join the FCU. Their
     claim is that the amendments violate the common bond requirements of the FCU Act.

     In First National Bank & Trust Co., et al. v. National Credit Union Administration, the
     District Court concluded that NCUA’s select employee group policy, which permitted more
     than one distinct employee group to exist in a single credit union, each with its own common
     bond, was a reasonable interpretation of the FCU Act. The banks appealed. On July 30,
     1996, the U.S. Court of Appeals for the D.C. Circuit issued an opinion reversing the District
     Court. The Court concluded that all groups in a credit union must share a single common
     bond.

     On remand to the District Court, the plaintiffs sought a nationwide injunction barring all
     federal credit unions from adding select employee groups that did not share a single common
     bond or adding new members to select employee groups already within their field of
     membership. NCUA objected arguing that this relief went far beyond what was sought in the
     AT&T case. The District Court then permitted the filing of a new lawsuit, ABA et al. v.
     NCUA et al., which for the first time directly challenged NCUA’s multiple group policy
nationwide. The Court then issued a nationwide injunction barring NCUA’s group policy
nationwide and prohibiting all federal credit unions from adding new select employee groups
or new members to existing select employee groups.

On December 24, 1996, the Court of Appeals issued a partial stay whereby credit unions
were allowed to admit new members to existing select employee groups, but were still
prevented from adding new groups. On February 24, 1997, the Supreme Court agreed to
hear the case. On February 25, 1998, the Supreme Court issued a decision holding that
banks do have standing to challenge NCUA’s interpretation of Section 109 of the FCU Act,
and that NCUA’s interpretation of the section was contrary to the unambiguous intent of
Congress. However, in August 1998, Congress passed the Credit Union Membership Access
Act (CUMAA), amending the FCU Act in favor of NCUA. The CUMAA allowed federal
credit unions to retain their then-existing members and groups and to charter multiple
common bond credit unions. CUMAA also authorized the chartering by NCUA of multiple
common bond credit unions.

On December 17, 1998, NCUA’s Board issued a final rule implementing the CUMAA. In
response, on January 8, 1999, the ABA filed a new lawsuit, ABA v. NCUA, which seeks to
challenge and invalidate NCUA’s field of membership rule (IRPS 99-1) on the premise that
the NCUA Board-approved membership rule unlawfully expands membership in, and eases
restrictions on the formation of, federal credit unions.

In the opinion of management, the ultimate resolution of these matters will not be material to
NCUA’s financial position.

Office of Personnel Management Action - In September 1997, the U.S. Office of Personnel
Management (OPM) transmitted to NCUA a report entitled “Report of a Delegated
Examining Oversight Review, National Credit Union Administration,” dated June 16-20,
1997 (the OPM Report). The OPM Report concluded that NCUA had violated merit systems
principles and committed prohibited personnel practices. As a result of the OPM Report,
NCUA lost its hiring authority and was required to undertake certain remedial actions with
respect to its personnel practices. During 1998, NCUA took all corrective actions required
by OPM and, on July 31, 1998, OPM returned NCUA’s appointing authority.

During 1997, the OPM referred the aforementioned matter to the Office of Special Counsel
(OSC) for an investigation of prohibited personnel practices. The OSC has not yet completed
its investigation. Once the investigation is complete, the OSC will either take corrective
action on its own or order NCUA to do so.

The resolution of these matters may result in claims against NCUA, as well as additional
costs related to the remedial personnel actions required. In the opinion of management, the
ultimate resolution of these matters will not be material to NCUA’s financial position.

Other Matters - In addition, NCUA is currently party to a number of other disputes which
involve or may involve litigation. In the opinion of management, the ultimate liability with
respect to these disputes, if any, will not be material to NCUA’s financial position.

                                   * * * * * *
NATIONAL CREDIT UNION ADMINISTRATION
SHARE INSURANCE FUND

Financial Statements for the Years Ended
December 31, 1998 and 1997, and
Independent Auditors' Reports
INDEPENDENT AUDITORS’REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Share
Insurance Fund as of December 31, 1998 and 1997, and the related statements of operations, fund
balance and cash flows for the years then ended. These financial statements are the responsibility of the
National Credit Union Administration Share Insurance Fund’s management. Our responsibility is to
express an opinion on these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards
applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States. Those standards require that we plan and perform the audit to obtain
reasonable assurance about whether the financial statements are free of material misstatement. An audit
includes examining, on a test basis, evidence supporting the amounts and disclosures in the financial
statements. An audit also includes assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall financial statement presentation. We believe that
our audits provide a reasonable basis for our opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of
the National Credit Union Administration Share Insurance Fund as of December 31, 1998 and 1997, and
the results of its operations and its cash flows for the years then ended in conformity with generally
accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 26,
1999, on our tests of the National Credit Union Administration Share Insurance Fund’s compliance with
certain provisions of laws, regulations, contracts, and grants, and our consideration of its internal control
over financial reporting.




February 26, 1999
NATIONAL CREDIT UNION ADMINISTRATION
SHARE INSURANCE FUND

BALANCE SHEETS
DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


ASSETS                                                                    1998            1997

  Investments (Note 5)                                              $ 2,827,099     $ 3,125,921
  Cash and cash equivalents                                             981,230         472,962
  Accrued interest receivable                                            40,071          37,803
  Assets acquired in assistance to insured credit unions                 14,253          21,136
  Capital notes advanced to insured credit unions                         1,466           1,211
  Notes receivable - National Credit Union
    Administration Operating Fund (Note 8)                                34,574          35,987
  Other notes receivable                                                     947             454

TOTAL ASSETS                                                        $ 3,899,640     $ 3,695,474


LIABILITIES AND FUND BALANCE

LIABILITIES:
  Estimated losses from supervised credit unions (Note 3)           $     78,626    $     80,775
  Estimated losses from asset and merger guarantees (Note 3)                  42             257
  Amounts due to insured shareholders of liquidated credit unions          7,612          20,148
  Due to National Credit Union Administration
    Operating Fund (Note 8)                                                2,129             114
  Accounts payable                                                           554             494

              Total liabilities                                           88,963         101,788

COMMITMENTS AND CONTINGENCIES (Notes 3, 8, 10, and 11)

FUND BALANCE:
  Insured credit unions' accumulated contributions                      2,938,503       2,772,896
  Insurance fund balance                                                  872,174         820,790

              Total fund balance                                        3,810,677       3,593,686

TOTAL LIABILITIES AND FUND BALANCE                                  $ 3,899,640     $ 3,695,474


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
SHARE INSURANCE FUND

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


                                                 1998        1997

REVENUES:
  Interest                                     $ 217,965   $ 201,938
  Other                                            2,033       2,151

               Total revenues                   219,998     204,089

EXPENSES (Note 8):
  Administrative expenses (Note 8):
    Employee wages and benefits                  35,852      34,196
    Travel                                        4,958       5,281
    Rent, communications, and utilities           1,723       1,380
    Contracted services                           2,532       2,131
    Other                                         6,006       6,779

               Total administrative expenses     51,071      49,767

  Provision for insurance losses                   -           -

               Total expenses                    51,071      49,767

EXCESS OF REVENUES OVER EXPENSES               $ 168,927   $ 154,322


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
SHARE INSURANCE FUND

STATEMENTS OF FUND BALANCE
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)

                                                Insured
                                             Credit Unions'   Insurance
                                             Accumulated        Fund
                                             Contributions     Balance

BALANCE AT JANUARY 1, 1997                    $ 2,637,743     $ 774,421

  Contributions from insured credit unions       135,153           -

  Excess of revenues over expenses                   -          154,322

  Dividends to insured credit unions                 -         (107,953)

BALANCE AT DECEMBER 31, 1997                   2,772,896        820,790

  Contributions from insured credit unions       165,607           -

  Excess of revenues over expenses                   -          168,927

  Dividends to insured credit unions                 -         (117,543)

BALANCE AT DECEMBER 31, 1998                  $ 2,938,503     $ 872,174


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
SHARE INSURANCE FUND

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


                                                                           1998         1997

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenues over expenses                                       $ 168,927    $ 154,322
  Adjustments to reconcile excess of revenues over
    expenses to cash provided by operating activities:
    Receipts (payments) relating to losses from supervised
       credit unions and assets and merger guarantees - net                 (2,364)      (8,822)
    (Increase) decrease in assets:
       Accrued interest receivable                                          (2,268)        (313)
       Assets acquired from credit unions, net                               6,883          694
       Capital notes advanced to credit unions - net                          (255)        (946)
       Other notes receivable                                                 (493)       1,852
    (Decrease) increase in liabilities:
       Amounts due to National Credit Union
          Administration Operating Fund                                      2,015         (210)
       Amounts due to insured shareholders of liquidated credit unions     (12,536)        (912)
       Accounts payable                                                         60          (99)

              Net cash provided by operating activities                    159,969      145,566

CASH FLOWS FROM INVESTING ACTIVITIES
  Investments, net                                                         298,822     (201,454)
  Collections on note receivable - National Credit
    Union Administration Operating Fund                                      1,413        1,413

              Net cash provided by (used in) investing activities          300,235     (200,041)

CASH FLOWS FROM FINANCING ACTIVITIES:
  Contributions from insured credit unions                                 165,607      135,153
  Dividends to insured credit unions                                      (117,543)    (107,953)

              Net cash provided by financing activities                     48,064       27,200

NET INCREASE (DECREASE) IN CASH
  AND CASH EQUIVALENTS                                                     508,268      (27,275)

CASH AND CASH EQUIVALENTS, BEGINNING OF YEAR                               472,962      500,237

CASH AND CASH EQUIVALENTS, END OF YEAR                                   $ 981,230    $ 472,962

See notes to financial statements.


-5-
NATIONAL CREDIT UNION ADMINISTRATION
SHARE INSURANCE FUND

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1998 AND 1997


1.    ORGANIZATION AND PURPOSE

      The National Credit Union Share Insurance Fund Administration Share Insurance Fund (the Fund) was
      created by the Public Law 91-468 (Title II of the Federal Credit Union Act), which was amended in 1984
      by Public Law 98-369 as discussed in Note 4. The Fund was established as a revolving fund in the
      United States Treasury under the management of the National Credit Union Administration (NCUA)
      Board for the purpose of insuring member share deposits in all federal credit unions and in qualifying
      state credit unions that request insurance. The maximum amount of insurance is $100,000 per
      shareholder account.

      NCUA exercises direct supervisory authority over federal credit unions and coordinates required
      supervisory involvement with the state chartering authority for state-chartered credit unions insured by the
      Fund. Insured credit unions are required to report certain financial and statistical information to NCUA
      on a semiannual or quarterly basis depending on the size of the credit union and are subject to periodic
      examination by NCUA. Information derived through the supervisory and examination process provides
      the Fund with the ability to identify credit unions experiencing financial difficulties that may require
      assistance from the Fund.

      Credit unions experiencing financial difficulties may be assisted by the Fund in continuing their operations
      if these difficulties are considered by the Fund to be temporary or correctable. This special assistance
      may be in the form of a waiver of statutory reserve requirements, a guarantee account, and/or cash
      assistance. If continuation of the credit union’s operations with Fund assistance is not feasible, a merger
      partner may be sought. If the assistance or merger alternatives are not practical, the credit union is
      liquidated.

      The first form of special assistance is waivers of statutory reserve requirements, whereby the credit union
      is permitted to cease making additions to its regular reserve and, in more severe cases, to commence
      charging operating losses against its regular reserve. When all reserves have been depleted by the credit
      union, the fund may provide a reserve guarantee account in the amount of the reserve deficit. In addition,
      the Fund may provide cash assistance in the form of share deposits and capital notes, or may purchase
      assets from the credit union.

      Mergers of financially troubled credit unions with stronger credit unions may also require Fund
      assistance. Merger assistance may be in the form of cash assistance, purchase of certain assets by the
      Fund, and/or guarantees of the values of certain assets (primarily loans).

      When a credit union is no longer able to continue operating and the merger and assistance alternatives are
      not practical, the Fund will liquidate the credit union, dispose of its assets, and pay members’shares up to
      the maximum insured amount. The values of certain assets sold (primarily loans) are sometimes
      guaranteed to third-party purchasers by the Fund.




-6-
2.    SIGNIFICANT ACCOUNTING POLICIES

      Cash Equivalents and Investments - Title II of the Federal Credit Union Act limits the Fund’s investments
      to United States Government securities or securities guaranteed as to both principal and interest by the
      United States Government. Cash equivalents are highly liquid investments with originalmaturities of
      three months or less. All investments are classified as held-to-maturity under Statement of Financial
      Standards No. 115, “Accounting for Certain Investments in Debt and Equity Securities.” Accordingly,
      the Fund records investments at amortized cost.

      Advances to Insured Credit Unions - The Fund provides cash assistance in the form of interest and non-
      interest-bearing capital notes (carried at face value), share deposits, and loans to certain credit unions to
      assist them in continuing their operations.

      Assets Acquired from Credit Unions - The Fund acquires the assets of liquidating credit unions pending
      their ultimate disposition. To assist in the merger of credit unions, the Fund may purchase certain credit
      union assets. In addition, the Fund may provide cash assistance by acquiring nonperforming assets of a
      credit union experiencing financial difficulty. These acquired assets are maintained by the Asset
      Management and Assistance Center in Austin, Texas, and are recorded by the Fund at their estimated net
      realizable value.

      Premium Revenue - The Fund may assess each insured credit union a regular annual premium of 1/12 of
      1% of its member share deposits (insured member share deposits in the case of corporate credit unions)
      outstanding as of December 31st of the preceding insurance year. The NCUA Board waived the 1998
      and 1997 share insurance premiums.

      Income Taxes - The Fund is exempt from Federal income taxes under §501(c)(1) of the Internal Revenue
      Code.

      Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
      the fair value disclosures for financial instruments:

      a.   Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents approximate fair
           values.

      b.   Investments - The fair value for investments is the quoted market value.

      c.   Capital Notes and Other Notes Receivable - It is not practicable to estimate the fair value of these
           assets as there is no secondary market, and the Fund has the ability and the intention to hold these
           notes to maturity.

      d.   Other - Accrued interest receivable, notes receivable from NCUA Operating Fund, payable to
           NCUA Operating Fund, due to insured shareholders of liquidated credit unions and other accounts
           payable are recorded at book values, which approximate the respective fair values.

      Use of Estimates - The preparation of financial statements in conformity with generally accepted
      accounting principles requires management to make estimates and assumptions that affect the reported
      amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
      financial statements and the reported amounts of revenues and expenses during the reporting period.
      Actual results could differ from management’s estimates.



-7-
      Reclassifications - Certain reclassifications to 1997 amounts were made to conform to the 1998
      presentation.

3.    PROVISION FOR INSURANCE LOSSES

      Management identifies credit unions experiencing financial difficulty through the Fund’s supervisory and
      examination process. The estimated losses from these supervised credit unions are determined by
      management on a specified case basis. Management also evaluates overall economic trends and monitors
      potential system-wide risk factors such as increasing levels of consumer debt, bankruptcies, and
      delinquencies. Nonspecified case reserve requirements are determined based upon an assessment of
      insured risk and historic loss experience. The anticipated losses are net of estimated recoveries from the
      disposition of the assets of failed credit unions.

      Total insurance in force as of December 31, 1998, is $322 billion. The total net reserves for identified
      and anticipated losses from supervised credit unions’failures were $79 million at December 31, 1998.
      Should there be no recoveries provided during the resolution process, possible additional reserves for $30
      million would be required.

      In exercising its supervisory function, the Fund will, at times, extend guarantees of assets (primarily
      loans) to third-party purchasers or to credit unions to facilitate mergers. Such guarantees totaled
      approximately $556,000 and $933,000 at December 31, 1998 and 1997, respectively. The estimated
      losses from asset and merger guarantees are determined by management on a case-by-case evaluation.

      In addition, the Fund guarantees loans made by the NCUA’s Central Liquidity Facility (CLF). Total line-
      of-credit guarantees of credit unions at December 31, 1998 and 1997, are approximately $25,311,000 and
      $4,241,000, respectively. The total balances outstanding under these line-of-credit guarantees at
      December 31, 1998 and 1997, are approximately $384,000 and $-0-, respectively.

      The activity in the reserves for estimated losses from supervised credit unions and asset and merger
      guarantees was as follows (in thousands):

                                                                                           Year Ended
                                                                                          December 31,
                                                                                        1998        1997

        BEGINNING BALANCE                                                             $ 81,032     $ 89,855

           Insurance losses                                                             (5,139)      (12,916)
           Recoveries                                                                    2,775         4,093

        ENDING BALANCE                                                                $ 78,668     $ 81,032

4.    FUND CAPITALIZATION

      Title VIII of Public Law 98-369, effective July 14, 1984, provided for the capitalization of the Fund
      through the contribution by each insured credit union of an amount equal to 1% of the credit union’s
      insured shares to be paid initially by January 21, 1985, and to be adjusted annually thereafter. The
      annual adjustment of the contribution is based on member share deposits outstanding as of December31st
      of the preceding year and is billed on a calendar year basis. The 1% contribution will be returned to the



-8-
      insured credit union in the event that its insurance coverage is terminated, or is obtained from another
      source, or the operations of the Fund are transferred from the NCUA Board.

      The law requires that, upon receipt of the 1% contribution, the total fund balance must be maintained at a
      normal operating level as determined by the NCUA Board. The NCUA Board has determined this level to
      range from 1.25% to 1.30% of insured shares. The level at both December 31, 1998 and 1997, was
      1.30%. Total insured shares at December 31, 1998 and 1997, were $322 billion and $294 billion,
      respectively.

      The NCUA Board declared and paid dividends of approximately $117,543,000 and $107,953,000 during
      1998 and 1997, respectively.

5.    INVESTMENTS

      All cash received by the Fund that is not used for outlays related to assistance to insured credit unions and
      liquidation activities is invested in U.S. Treasury securities.

      Investments consist of the following (in thousands):

                                                                 December 31, 1998
                                          Yield to                   Gross       Gross              Estimated
                                         Maturity      Amortized   Unrealized Unrealized             Market
                                         at Market       Cost        Gains       Losses               Value

        U.S. TREASURY
          SECURITIES:
          Maturities up to one year         5.98 % $ 1,528,491         $ 10,899      $    (15)     $ 1,539,375
          Maturities after one year
             through five years             6.11 %     1,298,608           29,361          -        1,327,969

                       Total                          $ 2,827,099      $ 40,260      $    (15)     $ 2,867,344

                                                                 December 31, 1997
                                          Yield to                   Gross       Gross              Estimated
                                         Maturity      Amortized   Unrealized Unrealized             Market
                                         at Market       Cost        Gains       Losses               Value

        U.S. TREASURY
          SECURITIES:
          Maturities up to one year         5.40 % $ 1,399,078         $     330     $ (2,205)     $ 1,397,203
          Maturities after one year
             through five years             6.25 %     1,726,843           18,395        (590)      1,744,648

                       Total                          $ 3,125,921      $ 18,725      $ (2,795)     $ 3,141,851

      Total investment purchases during both 1998 and 1997 were approximately $1.1 billion. Investment
      maturities during 1998 and 1997 were approximately $1.4 billion and $900 million, respectively. The
      Fund has the capability and management has the intention to hold all investments held at December 31,
      1998 and 1997, to maturity. There were no investment sales during 1998 and 1997.




-9-
6.   OTHER ASSETS

     Other assets are primarily comprised of secured and unsecured term notes related to the sale of assets held
     by the Asset Management and Assistance Center and recoveries on failed credit unions. The notes are
     being repaid in monthly principal installments with terms ranging from one to thirty years and interest
     rates ranging from 8.0% to 10.5%.

7.   AVAILABLE BORROWINGS

     The Fund is authorized by the Federal Credit Union Act to borrow from the Treasury of the United States,
     upon authorization by the NCUA Board, up to a maximum of $100,000,000. The CLF is authorized to
     make advances to the Fund under terms and conditions established by the NCUA Board. No borrowings
     were obtained from these sources during 1998 and 1997.

8.   TRANSACTIONS WITH NCUA OPERATING FUND

     Substantial administrative services are provided to the Fund by the NCUA Operating Fund. The NCUA
     Operating Fund charges the Fund for these services based on an annual allocation factor approved by the
     NCUA Board derived from a study of actual usage conducted by the management of these Funds. The
     allocation factor was 50% to the Fund and 50% to the NCUA Operating Fund for 1998 and 1997. The
     cost of services provided by the NCUA Operating Fund was approximately $50,293,000 and
     $48,607,000 for 1998 and 1997, respectively, and includes pension contributions of approximately
     $3,432,000 and $3,353,000 to the Civil Service Retirement System and Federal Employees Retirement
     System defined benefit retirement plans for 1998 and 1997, respectively.

     In 1988, the Fund entered into a $2,161,000 thirty-year unsecured term note with the NCUA Operating
     Fund. Interest received was approximately $81,000 for 1998 and $83,000 for 1997. The note receivable
     balance at December 31, 1998 and 1997, was approximately $1,386,000 and $1,458,000, respectively.

     In 1992, the Fund entered into a commitment to fund up to $41,975,000 through a thirty-year secured
     term note with the NCUA Operating Fund. The monies were advanced to the NCUA Operating Fund as
     needed to fund the costs of constructing a new building. Interest income was approximately $1,926,000
     and $1,945,000 for 1998 and 1997, respectively. The note receivable balance at December 31, 1998, was
     approximately $33,188,000.

     The above notes mature as follows (in thousands):

                                                                     Unsecured       Secured
                                                                     Term Note      Term Note        Total
         1999                                                          $      72     $ 1,341       $ 1,413
         2000                                                                 72       1,341         1,413
         2001                                                                 72       1,341         1,413
         2002                                                                 72       1,341         1,413
         2003                                                                 72       1,341         1,413
         Thereafter                                                        1,026      26,483        27,509
                      Total                                            $ 1,386       $ 33,188      $ 34,574




- 10 -
     The variable rate on both term notes is equal to the Fund’s prior-month yield on investments.
     The average interest rate during 1998 and 1997 was approximately 5.70% and 5.53%,
     respectively. At December 31, 1998, the rate was 5.74%.

     The NCUA Operating Fund leases certain office space and equipment under operating lease
     agreements that expire through 2003. Based on the allocation factor approved by the NCUA
     Board for 1998, the Fund will reimburse the NCUA Operating Fund for approximately 50%
     of the future lease payments. The cost of services provided by the NCUA Operating Fund
     includes rental charges of approximately $488,000 and $339,000 for 1998 and 1997,
     respectively. The amounts were derived using the current annual allocation factor.

     The NCUA Operating Fund’s total future minimum lease payments as of December 31,
     1998, are as follows (in thousands):

                                         1999                            $ 888
                                         2000                              538
                                         2001                              561
                                         2002                              571
                                         2003                               88

                                         Total                           $ 2,646

9.   DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

     The carrying amount and the estimated fair value of the Fund’s financial instruments are as
     follows:

                                              December 31, 1998                      December 31, 1997
                                            Carrying        Fair                   Carrying        Fair
                                            Amount         Value                   Amount         Value

         Investments                      $ 2,827,099      $ 2,867,344         $ 3,125,921         $ 3,141,851
         Cash and cash equivalents            981,230          981,230             472,962             472,962
         Accrued interest receivable           40,071           40,071              37,803              37,803
         Notes receivable - NCUA
           Operating Fund                       34,574          34,574               35,987            35,987
         Amounts due to insured
           shareholders of liquidated
           credit unions                         7,612           7,612               20,148            20,148
         Due to NCUA Operating Fund              2,129           2,129                  114               114
         Accounts payable                          554             554                  494               494


10. CONCENTRATIONS

     There are no significant concentrations of member share deposits within any region of the
     United States. Concentrations of member shares do exist within the manufacturing,
     governmental, and educational industries.




- 11 -
11. CONTINGENCIES

     Field of Membership Litigation - Four North Carolina Banks and the American Bankers
     Association (ABA) have challenged NCUA’s approval of charter amendments granted to
     AT&T Family Federal Credit Union (FCU). The banks challenged amendments that allowed
     select employee groups that were unrelated to the original sponsor to join the FCU. Their
     claim is that the amendments violate the common bond requirements of the FCU Act.

     In First National Bank & Trust Co., et al. v. National Credit Union Administration, the
     District Court concluded that NCUA’s select employee group policy, which permitted more
     than one distinct employee group to exist in a single credit union, each with its own common
     bond, was a reasonable interpretation of the FCU Act. The banks appealed. On July 30,
     1996, the U.S. Court of Appeals for the D.C. Circuit issued an opinion reversing the District
     Court. The Court concluded that all groups in a credit union must share a single common
     bond.

     On remand to the District Court, the plaintiffs sought a nationwide injunction barring all
     federal credit unions from adding select employee groups that did not share a single common
     bond or adding new members to select employee groups already within their field of
     membership. NCUA objected, arguing that this relief went far beyond what was sought in
     the AT&T case. The District Court then permitted the filing of a new lawsuit, ABA et al. v.
     NCUA et al., which for the first time directly challenged NCUA’s multiple group policy
     nationwide. The Court then issued a nationwide injunction barring NCUA’s group policy
     nationwide and prohibiting all federal credit unions from adding new select employee groups
     or new members to existing select employee groups.

     On December 24, 1996, the Court of Appeals issued a partial stay whereby credit unions
     were allowed to admit new members to existing select employee groups but were still
     prevented from adding new groups. On February 24, 1997, the Supreme Court agreed to
     hear the case. On February 25, 1998, the Supreme Court issued a decision holding that
     banks do have standing to challenge NCUA’s interpretation of Section 109 of the FCU Act,
     and that NCUA’s interpretation of that section was contrary to the unambiguous intent of
     Congress. However, in August 1998, Congress passed the Credit Union Membership Access
     Act (CUMAA), amending the FCU Act in favor of NCUA. The CUMAA allowed federal
     credit unions to retain their then-existing members and groups and to charter multiple
     common bond credit unions. CUMAA also authorized the chartering by NCUA of multiple
     common bond credit unions.

     On December 17, 1998, NCUA’s Board issued a final rule implementing the CUMAA. In
     response, on January 8, 1999, the ABA filed a new lawsuit, ABA v. NCUA which seeks to
     challenge and invalidate NCUA’s field of membership rule (IRPS 99-1) on the premise that
     the NCUA Board-approved membership rule unlawfully expands membership in, and eases
     restrictions on the formation of, federal credit unions.

     In the opinion of management, the ultimate resolution of these matters will not be material to
     NCUA’s financial position.

     Office of Personnel Management Action - In September 1997, the U.S. Office of Personnel
     Management (OPM) transmitted to NCUA a report entitled “Report of a Delegated
     Examining Oversight Review, National Credit Union Administration,” dated June 16-20,
     1997 (the OPM Report). The OPM Report concluded that NCUA had violated merit systems
     principles and committed prohibited personnel practices. As a result of the OMP Report,


- 12 -
     NCUA lost its hiring authority and was required to undertake certain remedial actions with
     respect to its personnel practices. During 1998, NCUA took all corrective actions required
     by OPM and, on July 31, 1998, OPM returned NCUA’s appointing authority.

     During 1997, the OPM referred the aforementioned matter to the Office of Special Counsel
     (OSC) for an investigation of prohibited personnel practices. The OSC has not yet completed
     its investigation. Once the investigation is complete, the OSC will either take corrective
     action on its own or order NCUA to do so.

     The resolution of these matters may result in claims against NCUA, as well as additional
     costs related to the remedial personnel actions required. In the opinion of management, the
     ultimate resolution of these matters will not be material toNCUA’s financial position.

     Other Matters - In addition, NCUA is currently party to a number of other disputes that
     involve or may involve litigation. In the opinion of management, the ultimate liability with
     respect to those disputes, if any, will not be material to NCUA’s financial position.




- 13 -
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

Financial Statements for the Years Ended
December 31, 1998 and 1997, and
Independent Auditors’and Accountants’
Reports




- 14 -
INDEPENDENT AUDITORS’REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Central
Liquidity Facility (CLF) as of December 31, 1998 and 1997, and the related statements of operations,
members’equity, and cash flows for the years then ended. These financial statements are the responsibility of
CLF’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Central Liquidity Facility as of December 31, 1998 and 1997, and the
results of its operations and its cash flows for the years then ended in conformity with generally accepted
accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 26, 1999,
on our examination of the National Credit Union Administration Central Liquidity Facility’s assertions as to the
effectiveness of its internal control over financial reporting, and our report dated February 26, 1999, on our
tests of its compliance with certain provisions of laws and regulations.



February 26, 1999
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

BALANCE SHEETS
DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


ASSETS                                          1998          1997

  Cash                                     $       12    $       14
  Investments with U.S. Central Credit
    Union (Notes 5 and 8)                      797,405       763,332
  Accrued interest receivable                    8,233         9,718

TOTAL ASSETS                               $ 805,650     $ 773,064


LIABILITIES AND MEMBERS' EQUITY

LIABILITIES:
  Member deposits (Note 7)                 $ 25,782      $ 25,813
  Accounts payable and other liabilities         59            69

              Total liabilities                 25,841        25,882

MEMBERS' EQUITY:
 Capital stock - required (Note 7)             768,298       735,671
 Retained earnings                              11,511        11,511

              Total members' equity            779,809       747,182

TOTAL LIABILITIES AND MEMBERS' EQUITY      $ 805,650     $ 773,064


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)


                                           1998       1997

REVENUE - Investment income              $ 40,028   $ 42,245

EXPENSES:
  Operating expenses:
    Group agent service fee                    1          2
    Personnel services                        85         97
    Other services                            26         30
   Rent, communications and utilities         14         14
    Personnel benefits                        19         18
    Supplies and materials                     2          2
    Employee travel                            2          3
    Printing and reproduction                  4          6

             Total operating expenses        153        172

  Interest - member deposits                 449        531

             Total expenses                  602        703

EXCESS OF REVENUE OVER EXPENSES          $ 39,426   $ 41,542


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF MEMBERS' EQUITY
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)

                                          Capital    Retained
                                          Stock      Earnings

BALANCE AT JANUARY 1, 1997               $ 706,214   $ 11,511

  Issuance of required capital stock       29,730        -

  Redemption of required capital stock       (273)       -

  Dividends                                   -       (41,542)

  Excess of revenue over expenses                      41,542

BALANCE AT DECEMBER 31, 1997              735,671      11,511

  Issuance of required capital stock       32,627        -

  Redemption of required capital stock        -          -

  Dividends                                   -       (39,426)

  Excess of revenue over expenses             -        39,426

BALANCE AT DECEMBER 31, 1998             $ 768,298   $ 11,511


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1998 AND 1997
(Dollars in Thousands)

                                                                  1998           1997

CASH FLOWS FROM OPERATING ACTIVITIES:
  Excess of revenue over expenses                            $ 39,426       $ 41,542
  Adjustments to reconcile excess of revenue over expenses
    to net cash provided by operating activities:
    Decrease (increase) in accrued interest receivable            1,485           (286)
    Decrease in accounts payable and other liabilities              (10)           (10)

             Net cash provided by operating activities           40,901         41,246

CASH FLOWS FROM INVESTING ACTIVITIES:
 Purchase of investments                                         (34,073)       (38,293)

             Net cash used in investing activities               (34,073)       (38,293)

CASH FLOWS FROM FINANCING ACTIVITIES:
 Additions to member deposits                                      1,506          9,486
 Issuance of required capital stock                               32,627         29,730
 Dividends                                                       (39,426)       (41,542)
  Withdrawal of member deposits                                   (1,537)          (341)
 Redemption of required capital stock                                -             (273)

             Net cash used in financing activities                (6,830)        (2,940)

NET (DECREASE) INCREASE IN CASH                                       (2)           13

CASH, BEGINNING OF YEAR                                              14               1

CASH, END OF YEAR                                            $       12     $       14


See notes to financial statements.




-5-
NATIONAL CREDIT UNION ADMINISTRATION
CENTRAL LIQUIDITY FACILITY

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1998 AND 1997


1.    ORGANIZATION AND PURPOSE

      The National Credit Union Administration Central Liquidity Facility (CLF) was created by the National
      Credit Union Central Liquidity Facility Act (the Act). The CLF is designated as a mixed-ownership
      government corporation under the Government Corporation Control Act. The CLF exists within the
      National Credit Union Administration (NCUA) and is managed by the National Credit Union
      Administration Board. The CLF became operational on October 1, 1979.

      The purpose of the CLF is to improve general financial stability by meeting the liquidity needs of credit
      unions. The CLF is a tax-exempt organization under Section 501(c)(1) of the Internal Revenue Code.

2.    SIGNIFICANT ACCOUNTING POLICIES

      Basis of Accounting - The CLF maintains its accounting records on the accrual basis of accounting.

      Allowance for Loan Losses - Loans to members are made on both a short-term and long-term basis. For
      all loans, the CLF either obtains a security interest in the assets of the borrower or in some cases receives
      the guarantee of the NCUA Share Insurance Fund.

      The CLF evaluates the collectibility of its loans to members through examination of the financial
      condition of the individual borrowing credit unions and the credit union industry in general.

      Investments - The CLF invests in redeposits and share accounts at U.S. Central Credit Union (see Notes 5
      and 8). All other investments are short-term with nomaturities in excess of one year. All investments are
      classified as held-to-maturity under Statement of Financial Accounting Standards No. 115, “Accounting
      for Certain Investments in Debt and Equity Securities.” Accordingly, the CLF records investments at
      amortized cost.

      Fair Value of Financial Instruments - The following methods and assumptions were used in estimating
      the fair value disclosures for financial instruments:

      a.   Cash - The carrying amounts for cash approximate fair value.

      b.   Investments - Securities held have maturities of one year or less and, as such, the carrying amounts
           approximate fair value.

      c.   Loans - For loans advanced to member credit unions, the carrying amounts approximate fair value.
           There were no loans to members outstanding at December 31, 1998 and 1997.

      d.   Member Deposits - Funds maintained with the CLF in excess of required capital amounts are
           recorded as member deposits. These deposits are due upon demand and the carrying amounts
           approximate the fair value.

-6-
      e.     Other - Accrued interest receivable and accounts payable and other liabilities are recorded at book
             values, which approximate the respective fair values.

      Use of Estimates - The preparation of financial statements in conformity with generally accepted
      accounting principles requires management to make estimates and assumptions that affect the reported
      amounts of assets and liabilities and disclosures of contingent assets and liabilities at the date of the
      financial statements and the reported amounts of revenues and expenses during the reporting period.
      Actual results could differ from management’s estimates.

      Reclassifications - Certain reclassifications to 1997 amounts were made to conform to the 1998
      presentation.

3.    GOVERNMENT REGULATIONS

      The CLF is subject to various Federal laws and regulations. The CLF’s operating budget requires
      Congressional approval and the CLF may not make loans to members for the purpose of expanding credit
      union loan portfolios. The CLF’s investments are restricted to obligations of the United States
      Government and its agencies, deposits in Federally insured financial institutions, and shares and deposits
      in credit unions. Borrowing is Congressionally limited to twelve times equity and capital subscriptions
      on-call. However, there is a Congressional limitation of $600,000,000 on funds that are borrowed and
      then loaned out at any one point in time. At December 31, 1998 and 1997, the CLF was in compliance
      with these Congressional limitations.

4.    LOANS TO MEMBERS

      There were no loans outstanding at December 31, 1998 or 1997. However, the CLF provides members
      with extended loan commitments and lines of credit. There were no outstanding loan commitments or
      lines of credit at December 31, 1998.

5.    FUNDS ON DEPOSIT WITH U.S. CENTRAL CREDIT UNION

      Funds not currently required for operations are invested as follows (in thousands):

                                                                                           December 31,
                                                                                         1998        1997

           U.S. Central Credit Union (see Note 8):
             Redeposit Account                                                       $ 732,320      $ 705,332
             Share accounts                                                             65,085         58,000

                                                                                     $ 797,405      $ 763,332

6.    BORROWING AUTHORITY

      The Secretary of the Treasury is authorized by the Act to lend up to $500 million to the CLF in the event
      that the Board certifies to the Secretary that the CLF does not have sufficient funds to meet the liquidity
      needs of credit unions. This authority to lend is limited to such extent and in such amounts as are
      provided in advance by Congressional Appropriation Acts. On December 23, 1981, President Reagan
      signed PL 97-101, which provided $100 million of permanent indefinite borrowing authority that may be
      provided by the Secretary of the Treasury to the CLF to meet emergency liquidity needs of credit unions.

-7-
      Borrowings would be from the Federal Financing Bank with interest generally payable upon maturity.
      There were no borrowings outstanding at December 31, 1998 and 1997.

7.    CAPITAL STOCK AND MEMBER DEPOSITS

      The required capital stock account represents subscriptions remitted to the CLF by member credit unions.
      Regular members’required subscription amounts equal one-half of one percent of their paid-in and
      unimpaired capital and surplus, one-half of which amount is required to be remitted to the CLF. Agent
      members’required subscription amounts equal one-half of one percent of the paid-in and unimpaired
      capital and surplus of all of the credit unions served by the agent member, one-half of which is required to
      be remitted to the CLF. In both cases, the remaining one-half of the subscription is required to be held in
      liquid assets by the member credit unions subject to call by the National Credit Union Administration
      Board. These unremitted subscriptions are not reflected in the CLF’s financial statements. Subscriptions
      are adjusted annually to reflect changes in the member credit unions’paid-in and unimpaired capital and
      surplus. Dividends are declared and paid on required capital stock.

      Member deposits represent amounts remitted by members over and above the amount required for
      membership. Interest is paid on member deposits at a rate equivalent to the dividend rate paid on required
      capital stock.

8.    U.S. CENTRAL CREDIT UNION MEMBERSHIP

      During fiscal year 1984, the CLF accepted a membership request from U.S. Central Credit Union (USC)
      on behalf of 29 of its corporate credit union members. At December 31, 1998 and 1997, $732,320,000
      and $705,332,000, respectively, of the required portion of subscribed capital stock was purchased from
      the CLF by USC on behalf of its member credit unions.

      In addition, by accepting the USC membership request, the CLF was initially committed to reinvest all but
      $50,000,000 of its total share capital in USC at market rates of interest. Beginning April 1, 1996, the
      CLF reinvests all of its agent member share capital in USC at market rates of interest. At December 31,
      1998 and 1997, approximately $797,405,000 and $763,332,000, respectively, were invested in USC
      share accounts at 4.51% and 5.48%, respective yields.

9.    CONCENTRATION OF CREDIT RISK

      At December 31, 1998 and 1997, the CLF has a concentration of credit risk for its investments on deposit
      with USC of approximately $797,405,000 and $763,332,000 (see Notes 5 and 8).

10. SERVICES PROVIDED BY THE NATIONAL CREDIT UNION ADMINISTRATION

      The National Credit Union Administration provides the CLF with data processing and other miscellaneous
      services and supplies. In addition, the National Credit Union Administration pays CLF’s employees’
      salaries and benefits as well as the CLF’s portion of monthly building operating costs. The CLF
      reimburses the National Credit Union Administration on a monthly basis for these items. Total
      reimbursements for the years ended December 31, 1998 and 1997, amounted to approximately $151,000
      and $171,000, respectively.




-8-
11. DISCLOSURE OF FAIR VALUE OF FINANCIAL INSTRUMENTS

      The carrying amount and the estimated fair value of the CLF’s financial instruments are as follows (in
      thousands):

                                                 December 31, 1998                    December 31, 1997
                                                Carrying      Fair                  Carrying        Fair
                                                Amount       Value                  Amount         Value

        Cash                                   $        12    $        12       $         14     $        14
        Investments                                797,405        797,405            763,332         763,332
        Accrued interest receivable                  8,233          8,233              9,718           9,718
        Member deposits                             25,782         25,782             25,813          25,813
        Accounts payable and
          other liabilities                        59                 59                 69               69
                                               * * * * * *




-9-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING
LOAN PROGRAM

Financial Statements for the Years
Ended December 31, 1998 and 1997, and
Independent Auditors' Reports




- 10 -
INDEPENDENT AUDITORS' REPORT


To the Inspector General of the
 National Credit Union Administration:

We have audited the accompanying balance sheets of the National Credit Union Administration Community
Development Revolving Loan Program (CDRLP) as of December 31, 1998 and 1997, and the related
statements of operations, changes in program balance, and cash flows for the years then ended. These financial
statements are the responsibility of the CDRLP’s management. Our responsibility is to express an opinion on
these financial statements based on our audits.

We conducted our audits in accordance with generally accepted auditing standards and the standards applicable
to financial audits contained in Government Auditing Standards, issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the financial statements are free of material misstatement. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in the financial statements. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well as evaluating
the overall financial statement presentation. We believe that our audits provide a reasonable basis for our
opinion.

In our opinion, such financial statements present fairly, in all material respects, the financial position of the
National Credit Union Administration Community Development Revolving Loan Program as of December31,
1998 and 1997, and the results of its operations and its cash flows for the years then ended in conformity with
generally accepted accounting principles.

In accordance with Government Auditing Standards, we have also issued our report dated February 26, 1999,
on our tests of the National Credit Union Administration Community Development Revolving Loan Program’s
compliance with certain provisions of laws, regulations, contracts, and grants, and on our consideration of its
internal control over financial reporting.



February 26, 1999
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

BALANCE SHEETS
DECEMBER 31, 1998 AND 1997

ASSETS                                        1998             1997

  Cash and cash equivalents (Note 2)    $ 3,043,631      $ 2,072,615
  Loans - net of allowance (Note 4)       7,666,977        6,688,931
  Interest receivable                        62,431           55,721

TOTAL ASSETS                            $ 10,773,039     $ 8,817,267


LIABILITIES AND PROGRAM BALANCE

LIABILITIES:
  Accrued technical assistance          $     190,560    $     85,245

              Total liabilities               190,560          85,245

PROGRAM BALANCE:
  Revolving fund capital (Note 3)           10,000,000       8,000,000
  Accumulated earnings                         582,479         732,022

              Total program balance         10,582,479       8,732,022

TOTAL LIABILITIES AND PROGRAM BALANCE   $ 10,773,039     $ 8,817,267


See notes to financial statements.




-2-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

STATEMENTS OF OPERATIONS
YEARS ENDED DECEMBER 31, 1998 AND 1997

                                                   1998            1997

REVENUES:
  Interest on cash equivalents                  $ 59,795      $    53,147
  Interest on loans                              217,972          175,475
  Provision for loan losses                       (21,658)        (17,437)

              Total                               256,109         211,185

EXPENSES:
  Technical assistance                           (405,652)        (193,793)

              Total                              (405,652)        (193,793)

(DEFICIENCY) EXCESS OF REVENUES OVER EXPENSES   $ (149,543)   $    17,392


See notes to financial statements.




-3-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

STATEMENTS OF CHANGES IN PROGRAM BALANCE
YEARS ENDED DECEMBER 31, 1998 AND 1997

                                                       1998          1997

PROGRAM BALANCE, BEGINNING OF YEAR                 $ 8,732,022    $7,714,630

   Appropriation - revolving fund capital            2,000,000     1,000,000

   (Deficiency) excess of revenues over expenses      (149,543)       17,392

PROGRAM BALANCE, END OF YEAR                       $ 10,582,479   $ 8,732,022


See notes to financial statements.




-4-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

STATEMENTS OF CASH FLOWS
YEARS ENDED DECEMBER 31, 1998 AND 1997

                                                                       1998              1997

CASH FLOWS FROM OPERATING ACTIVITIES:
  (Deficiency) excess of revenues over expenses                     $ (149,543)    $      17,392
  Adjustments to reconcile the (deficiency) excess of
    revenues over expenses to net cash (used in) provided by
    operating activities:
    Provision for loan losses                                           21,658            17,437
    Increase in interest receivable                                     (6,710)           (5,106)
    Increase in accrued technical assistance                           105,315            22,660

              Net cash (used in) provided by operating activities       (29,280)          52,383

CASH FLOWS FROM INVESTING ACTIVITIES:
  Loan principal repayments                                           1,965,296         1,768,944
  Loan disbursements                                                 (2,965,000)       (2,261,000)

              Net cash used in investing activities                    (999,704)        (492,056)

CASH FLOWS FROM FINANCING ACTIVITIES:
  Appropriation - revolving fund capital                              2,000,000        1,000,000

              Net cash provided by financing activities               2,000,000        1,000,000

NET INCREASE IN CASH AND
  CASH EQUIVALENTS                                                     971,016           560,327

CASH AND CASH EQUIVALENTS,
  BEGINNING OF YEAR                                                   2,072,615        1,512,288

CASH AND CASH EQUIVALENTS, END OF YEAR                              $ 3,043,631    $ 2,072,615


See notes to financial statements.




-5-
NATIONAL CREDIT UNION ADMINISTRATION
COMMUNITY DEVELOPMENT REVOLVING LOAN PROGRAM

NOTES TO FINANCIAL STATEMENTS
YEARS ENDED DECEMBER 31, 1998 AND 1997


1.    NATURE OF ORGANIZATION

      The Community Development Revolving Loan Program for Credit Unions (CDRLP) was
      established by an act of Congress (Public Law 96-123, November 20, 1979) to stimulate
      economic development in low-income communities. The National Credit Union
      Administration (NCUA) and the Community Services Association (CSA) jointly adopted Part
      705 of NCUA Rules and Regulations, governing administration of the Program, on February
      28, 1980.

      Upon the dissolution of CSA in 1983, administration of the CDRLP was transferred to the
      Department of Health and Human Services (HHS). Because HHS never promulgated final
      regulations governing the administration of the CDRLP, the program was dormant.

      The Community Development Credit Union Transfer Act (Public Law 99-604, November 6,
      1986) transferred CDRLP administration back to NCUA. The NCUA Board adopted
      amendments to Part 705 of NCUA Rules and Regulations on September 16, 1987, and began
      making loans/deposits to participating credit unions in 1990.

      The purpose of the CDRLP is to stimulate economic activities in the communities served by
      low-income credit unions which will result in increased income, ownership and employment
      opportunities for low-wealth residents and other economic growth. The policy of NCUA is to
      revolve the loans to qualifying credit unions as often as practical in order to gain maximum
      impact on as many participating credit unions as possible.

2.    SIGNIFICANT ACCOUNTING AND OPERATIONAL POLICIES

      Basis of Accounting - The CDRLP reports its financial statements on the accrual basis of
      accounting.

      Cash Equivalents - The Federal Credit Union Act permits the CDRLP to make investments
      in United States Government Treasury securities. All investments in 1998 and 1997 were
      cash equivalents and are stated at cost which approximates market. Cash equivalents are
      highly liquid investments with original maturities of three months or less.

      Allowance for Loan Losses - The CDRLP records a provision for estimated loan losses.
      Loans considered to be uncollectible are charged to the allowance for loan losses.
      Management continually evaluates the adequacy of the allowance for loan losses based upon
      prevailing circumstances and an assessment of collectibility risk of the total loan portfolio.
      Accrual of interest is discontinued on non-performing loans when management believes
      collectibility is doubtful. At December 31, 1998 and 1997, there were no nonaccrual loans.




-6-
      Salary and Operating Expenses - NCUA provides certain general and administrative support
      to the CDRLP, including office space, salaries, and certain supplies. The value of these
      contributed services is not allocated to the CDRLP. Consequently, the results of operations
      would be significantly different if the CDRLP were required to pay these expenses.

      Use of Estimates - The preparation of financial statements in conformity with generally
      accepted accounting principles requires management to make estimates and assumptions that
      affect the reported amounts of assets and liabilities and disclosure of contingent assets and
      liabilities at the date of the financial statements and the reported amounts of revenues and
      expenses during the reporting period. Actual results could differ from management's
      estimates.

      Reclassifications - Certain reclassifications to 1997 amounts were made to conform to the
      1998 presentation.

3.    GOVERNMENT REGULATIONS

      The CDRLP is subject to various Federal laws and regulations. Lending is Congressionally
      limited to a total of the $10,000,000 appropriated for the CDRLP plus accumulated earnings.
      Included in this $10,000,000 is $1,000,000 that was made available to the CDRLP during
      1996 in accordance with Public Law 104-204, and an additional $1,000,000 that was made
      available to the CDRLP during 1997 in accordance with Public Law 105-65. During 1998,
      the CDRLP received a supplementary appropriation of $2,000,000 to expand its community
      loan program. These funds were approved on October 21, 1998, in accordance with Public
      Law 105-276, which authorizes the use of these funds and includes accumulated earnings that
      are to remain available until expended. Federally chartered and state-chartered credit unions
      may participate in the Program. Loans may be made to predominantly low-income credit
      unions as defined by the NCUA and are recorded in the participant's accounting records as
      nonmember deposits. As nonmember deposits, the NCUA Share Insurance Fund (NCUSIF)
      may insure these loans to participating credit unions in an amount not to exceed $100,000 per
      credit union. The covered amount of loans recorded as nonmember deposits by participating
      credit unions insured by the NCUSIF totaled approximately $4,956,000 and $4,738,000 at
      December 31, 1998 and 1997, respectively.

      Loans issued prior to June 1993 were limited to a maximum amount of $200,000. Loans
      issued thereafter are limited to a maximum amount of $300,000. Loans issued prior to
      January 1, 1995, carry a fixed rate of 2%; loans issued between January 1, 1995, and
      December 31, 1998, carry a fixed interest rate of 3%; and loans issued after January 1, 1999,
      carry a fixed rate of 2%. Interest and principal are repaid on a semiannual basis beginning
      one year after the initial distribution of the loan. The maximum term of each loan is five
      years. Participating credit unions are required to match the value of the loan within one year
      of the date of approval of the loan.

4.    LOANS
      Loans outstanding at December 31, 1998, are scheduled to be repaid as follows:




-7-
             1999                                                                                 $ 2,155,881
             2000                                                                                   1,934,200
             2001                                                                                   1,858,700
             2002                                                                                   1,173,300
             2003                                                                                     712,500

                                                                                                      7,834,581

             Less - allowance for loan losses                                                         (167,604)

             Net loans outstanding                                                                $ 7,666,977

       Changes in the allowance for loan losses are summarized below:
                                                                                       1998              1997
        Balance, beginning of year                                                  $ 145,946         $ 70,132
        Provision for loan losses                                                      21,658           17,437
        Recovery of previously written-off amounts                                        -             58,377
        Balance, end of year                                                        $ 167,604         $ 145,946

      There have been no write-offs of outstanding loans for the years ended December 31, 1998
      and 1997.

5.    CONCENTRATION OF CREDIT RISK

      At December 31, 1998 and 1997, there are no significant concentrations of credit risk in the
      loan portfolio. As discussed in Note 1, the CDRLP provides loans to credit unions that serve
      predominantly low-income communities.

6.    ESTIMATED FAIR VALUE OF FINANCIAL INSTRUMENTS

      The following disclosures of the estimated fair value of financial instruments are made in
      accordance with the requirements of Statement of Financial Accounting Standards No. 107,
      “Disclosures about Fair Value of Financial Instruments.” The methods and assumptions used
      in estimating the fair value disclosures for financial instruments are as follows:

      Cash and Cash Equivalents - The carrying amounts for cash and cash equivalents
      approximate fair values.

      Interest Receivable and Accrued Technical Assistance - Are recorded at book values, which
      approximate the respective fair values.

      Loans - The fair value is estimated by discounting projected future cash flows using current
      market interest rates. For purposes of this calculation, the discount rate used was the prime
      interest rate plus two percent (9.75% at December 31, 1998, and 10.50% at December 31,
      1997).

      The carrying amount and the estimated fair value of the CDRLP's financial instruments are
      as follows:




-8-
                                                   December 31, 1998                 December 31, 1997
                                                 Carrying    Estimated             Carrying    Estimated
                                                 Amount      Fair Value            Amount      Fair Value
        Assets:
          Cash and cash equivalents          $ 3,043,631     $ 3,043,631       $ 2,072,615      $ 2,072,615
           Interest receivable               $     62,431    $    62,431       $     55,721     $    55,721
           Loans                             $ 7,834,581     $ 6,232,368       $ 6,834,877      $ 5,758,586
           Allowance for loan losses            (167,604)       (167,604)         (145,946)        (145,946)
           Loans, net of allowance           $ 7,666,977     $ 6,064,764       $ 6,688,931      $ 5,612,640
        Liabilities:
          Accrued technical assistance       $ 190,560       $ 190,560         $     85,245     $    85,245

      It is the intent of the CDRLP to hold its loans to maturity. The CDRLP anticipates realizing
      the carrying amount in full.

                                         * * * * * *




-9-
